                                                                       United States Department of State
                                                                       and the Broadcasting Board of Governors

                                                                       Office of Inspector General

                                                                                 JUN 11 2014




MEMORANDUM

TO:               A - Joyce A. Barr
                  CGFS - Christopher H. F laggs, ~;--/~

FROM:             OIG/AUD - Norman P. Brown

SUBJECT:          Report on F Y 2013 Risk Assessment o.fTravel and Purchase Card Programs at
                  the Department ofState (AUD-CG-14-27)

The Government Charge Card Abuse Prevention Act of 201 2 1 (the Act) requires the Office of
Inspector General (OIG) to conduct periodic assessments of agency purchase and travel card
programs that identify and analyze risks of illegal, improper, or erroneous purchases and
payments for use in determining the scope, frequency, and number of periodic aud its of these
programs. The FY 2013 risk assessment was the first such review conducted of the travel and
purchase card programs of the Department of State (Department). Travel and purchase card
program size, internal controls, training, reported violations, 2 previous OIG audits, and OIG
Office of Investigations (OIG/INV) forensic audit observations were considered in assessing the
risks.

The risk assessment was not an audit and therefore not conducted in accordance with generally
accepted government auditing standards. The results of the risk assessment should not be
interpreted to conclude that travel and purchase card programs with lower risk are free of illegal,
improper, or erroneous use or internal control deficiencies. Conversely, a higher-risk program
may not necessarily signify illegal, improper, or erroneous use- only that conditions are
conducive to those activities. Regardless of the risk assessment results, if the travel and purchase
card programs were to be audited, a team may identify such issues tlu·ough independent testing
of travel and purchase card data. For example, a purchase card program may be found to be
"very low ri sk" based on documentation and other information provided by agency officials, the
number of cardholders, and the total amount of purchase card expenditures. However, an audit
of that purchase card program may determine that the controls outlined in an agency 's policy are
not being followed and that illegal, improper, or erroneous activity is occurring. The risk
assessment was designed to identify the programs where the OIG Office of Audits should focus
its limited resources.


1
 Pub. L. No. 11 2-194 .
2
 Repo1ted violations are app licable only to purchase card programs. Violations are required to be reported if the
agency spends more than $1 0 million annually.


                                               UNCLASSIFIED
                                             UNCLASSIFIED

The results of the assessment show that the risk of illegal, improper, or erroneous use in the
Department’s travel card program is “very high,” and as a result, an audit of the Department’s
travel card program has been recommended for inclusion in the OIG FY 2015 annual audit plan.
The Department’s purchase card program was rated “medium” and was not recommended for
audit consideration in FY 2015. 3

                                       Scope and Methodology

OIG’s Office of Audits performed this risk assessment from March to May 2014. The objective
was to assess the risk of illegal, improper, and erroneous use of the purchase and travel card
programs to determine the scope, frequency, and number of audits recommended to be
conducted. The assessment was conducted using industry standard principles for risk
management. 4 The risk assessment was conducted by Melinda M. Perez, Director, Contracts and
Grants Division, and Beverly J.C. O’Neill, Audit Manager, Contracts and Grants Division.

Assessment Criteria

To conduct the risk assessment, OIG reviewed FY 2013 charge card data, documentation, and
information provided by Department officials; however, OIG did not independently verify or
validate the data obtained. We assessed the travel card program based on four criteria and the
purchase card program on five criteria. The criteria are described in the paragraphs that follow.

        Internal Controls. Using the criteria identified in the Act and Office of Management
and Budget (OMB) Circular No. A-123, 5 internal controls were assessed for the travel card and
purchase card programs. The travel card program was assessed for 28 general controls and 18
controls specific to travel card programs (46 total controls), and the purchase card program was
assessed for the same 28 general controls and 29 controls specific to purchase card programs (57
total controls). A rating of “lower,” “medium,” or “higher” was assigned based on documented
compliance with required controls.

        Training. The travel card and purchase card programs were assigned a rating of “lower,”
“medium,” or “higher” based on the availability of training and the incorporation of training in
policy for each program.

        Previous OIG Audits. Results of previous audits, as well as the statuses of
implementation of recommendations, were reviewed for the travel card and purchase card
programs. A program that had not been audited was assigned a “higher” rating, and the same
rating was assigned for an audit that had been conducted more than 10 years ago. A “lower”

3
  The results of the risk assessment do not preclude OIG from reviewing the Department’s purchase card program
during FY 2015 or at any other time.
4
  “Enterprise Risk Management – Integrated Framework Executive Summary,” Committee of Sponsoring
Organizations of the Treadway Commission, Sept. 2004, and “Risk Assessment in Practice,” Deloitte & Touche
LLP, Oct. 2012.
5
  OMB Circular No. A-123, “Management’s Responsibility for Internal Control,” App. B, “Improving the
Management of Government Charge Card Programs,” Jan. 15, 2009.
                                                  2
                                             UNCLASSIFIED
                                               UNCLASSIFIED

rating was assigned when a program had been recently audited and recommendations had been
implemented. A “medium” rating was assigned for programs that had been audited recently but
for which recommendations had not been fully implemented. The ratings were mitigated if
documentation of meaningful internal reviews (conducted by the agency) was provided.

        OIG/INV Forensic Audit Observation. Ratings of “lower,” “medium,” or “higher”
were assigned to the travel card program and the purchase card program based on input from
OIG/INV forensic auditors. We met with the OIG/INV forensic audit manager to discuss the
progress in using data mining to review travel card and purchase card transactions for the
Department. The information provided by OIG/INV included results of its analyses and
interviews with the officials responsible for the travel and purchase card programs. Details
related to each program are described in the Results of Risk Assessment section of this report.

       Violation Reports. Violation reports were considered only for the purchase card
program, as these reports are required when a purchase card program spends more than
$10 million per year. 6 A rating of “lower” was assigned if a report was provided and a lower
number of violations had been reported.

Impact and Likelihood

Impact refers to the extent to which a risk event might affect the Department, and likelihood
represents the possibility that a given event might occur. We used the dollars spent in the travel
card and purchase card programs to determine an impact rating of “lower,” “medium,” or
“higher” and the number of cardholders in each program to determine a likelihood rating of
“lower,” “medium,” or “higher.” The rating criteria are shown in Table 1.

                 Table 1. Impact and Likelihood Ratings
                       Rating                    Impact                        Likelihood
                   Lower                Less than $1 million           Fewer than 250 cardholders
                   Medium               $1 million to $10 million      250 to 500 cardholders
                   Higher               More than $10 million          More than 500 cardholders
                  Source: OIG developed based on review of multiple sources, including industry standard
                  principles for risk management.

The impact and likelihood ratings were compared to determine a single “factor” that was used in
the final overall risk assessment for the travel card and purchase card programs. We plotted the
impact and likelihood ratings on a chart known as a “heat map,” which depicts the intersections
of the lower, medium, and higher ratings, to determine a rating for the impact and likelihood
factor. The heat map is shown in Table 2.




6
    OMB M-13-21, “Implementation of the Government Charge Card Abuse Prevention Act of 2012,” Sept. 6, 2013.
                                                    3
                                               UNCLASSIFIED
                                             UNCLASSIFIED

                Table 2. Impact and Likelihood Factor Heat Map
                                                                      Factor
                                   Higher          Medium             High        Very High
                     Impact
                                   Medium            Low            Medium          High
                     Rating
                                   Lower           Very Low           Low          Medium
                                                    Lower           Medium         Higher
                                                                Likelihood Rating
                Source: OIG developed based on review of industry standard principles for risk management.

Final Risk Assessment

OIG combined the individual criteria ratings to form an overall combined rating and used this
rating with the impact and likelihood factor to determine the final risk assessments for the
Department’s travel and purchase card programs. Specifically, we used the heat map shown in
Table 3 to arrive at the overall risk assessment ratings.

                Table 3. Final Assessment Heat Map
                                                             Final Assessment Rating
                                   Very High        Medium             High             Very High
                   Impact and      High             Medium             High             Very High
                   Likelihood      Medium            Low              Medium               High
                     Factor        Low             Very Low             Low              Medium
                                   Very Low        Very Low             Low              Medium
                                                     Low              Medium               High
                                                            Combined Criteria Rating
                 Source: OIG developed based on review of industry standard principles for risk management.


                                    Results of Risk Assessment

The results of the assessment show that the risk of illegal, improper, or erroneous use in the
Department’s travel card program is “very high.” As a result, an audit of the Department’s travel
card program has been recommended for inclusion in the OIG FY 2015 annual audit plan. The
Department’s purchase card program was rated “medium” and was not recommended for OIG
audit consideration for FY 2015; 7 however, OIG suggests that both travel card and purchase card
program managers take appropriate actions to ensure and improve oversight of the programs.
The individual program results are described in the sections that follow.

Department of State Travel Card

       Criteria Ratings. According to documentation and information provided by the
Department’s travel card office, we determined that travel card program compliance with
required internal controls was generally good–overall 89 percent were in compliance (41 of 46
controls), to include 78 percent in compliance (14 of 18 controls) with travel card-specific
7
 The results of the risk assessment do not preclude OIG from reviewing the Department’s purchase card program
during FY 2015 or at any other time.
                                                  4
                                             UNCLASSIFIED
                                                UNCLASSIFIED

controls, resulting in a rating of “lower” for this criterion. The availability of training and
incorporation of training in policy were rated “medium” because the travel card management
plan was not clear as to how refresher training was provided and/or enforced for cardholders and
other program participants, which is potentially a significant weakness in ensuring that
cardholders and other program participants understand the rules and regulations regarding travel
card use. The last audit of the travel card program was conducted in 2002 (reported in March
2003), 8 and although all of the recommendations have since been implemented, the audit
identified weaknesses in internal controls and is now more than 10 years old. This resulted in a
rating of “higher” for the prior OIG coverage criterion. Finally, the input from OIG/INV
forensic auditors and their review of data for the travel card program resulted in the rating of
“higher.” Consequently, these factors significantly influenced the combined rating of “high” for
the travel card program. OIG/INV identified multiple areas that warrant closer scrutiny, such as
payments due from individual cardholders totaling approximately $1 million that were 60 days
delinquent (when data was obtained); disciplinary procedures that were implemented
inconsistently across bureaus (according to interviews with the travel card program manager);
split disbursements 9 that were not being implemented; and the effectiveness, as well as the costs,
of managing the centrally billed accounts (CBA) that may not justify their high rate of use by the
Department. The individual criteria ratings and overall combined rating are shown in Table 4.

                   Table 4. Criteria Ratings
                              Criteria                               Rating
                   Internal Controls                                 Lower
                   Training                                          Medium
                   Prior OIG Audits                                  Higher
                   OIG/INV Input                                     Higher
                   Combined                                           High
                   Source: OIG generated based on analysis of information and documentation
                   as described in the Scope and Methodology section of this report.

        Impact and Likelihood Factor. The Department’s travel card office reported that in
FY 2013, the Department spent a total of $237 million ($213 million in CBA travel cards and
$24 million on individually billed accounts (IBA)), which was attributed to 9,081 total
cardholders (832 CBAs and 8,249 IBAs). The impact and likelihood factor, shown in Table 5,
raises the significance of the risk associated with the Department’s travel card program.

                  Table 5. Impact and Likelihood Factor
                                                                          Rating
                   Impact               $237 million                      Higher
                   Likelihood           9,081 Cardholders                 Higher
                   Factor                              Very High
                   Source: OIG generated based on analysis of information and documentation
                   as described in the Scope and Methodology section of this report.



8
 Domestic Travel Card Program (AUD/FM-03-33, March 2003).
9
 Split disbursements allow for cardholders to have part of their travel vouchers paid directly to the credit card
company. Split disbursements are required by OMB Circular A-123, App. B.
                                                     5
                                                UNCLASSIFIED
                                              UNCLASSIFIED

         Final Risk Assessment and Recommendation. The final determination of risk of
illegal, improper, or erroneous use in the Department travel card program was “very high.” As a
result, an audit of the Department’s travel card program has been recommended for inclusion in
the OIG FY 2015 annual audit plan. OIG also suggests that the travel card program manager
take appropriate actions to ensure and improve oversight of the travel card program.

Department of State Purchase Card

        Criteria Ratings. According to documentation and information provided by the
Department’s purchase card office, OIG determined that program compliance with required
internal controls was generally good—overall 95 percent were in compliance (54 of 57 controls),
to include 93 percent in compliance (27 of 29 controls) with purchase card-specific controls,
resulting in a rating of “lower” for this criterion. The availability of training and the
incorporation of training in Department policy for the purchase card program were rated “lower”
because the purchase card office, in coordination with the Foreign Service Institute, had
developed specialized training for various participants in the program and it requires training for
applicable cardholders every 3 years. The last audit of the purchase card program was conducted
in 2009-2010 (reported in September 2010), 10 and one recommendation remained in the
“resolved” status. However, the Department provided documentation of internal reviews that
were conducted that mitigated the risk and resulted in a rating of “lower” for the prior audit
criterion. The input from OIG/INV forensic auditors and their review of data for the purchase
card program included questionable purchases and concerns that controls at overseas posts might
not be followed, which resulted in a rating of “higher” for this criterion. Finally, the Department
met the criteria and reported on violations as required, resulting in a “lower” rating. The report
included information from OIG on eight violations in various steps in the resolution process,
including adverse personnel actions and pending hearings. The individual criteria ratings and
overall combined rating are shown in Table 6.

                    Table 6. Criteria Ratings
                               Criteria                           Rating
                    Internal Controls                             Lower
                    Training                                      Lower
                    Prior OIG Audits                              Lower
                    OIG/INV Input                                 Higher
                    Violation Report                              Lower
                    Combined                                       Low
                    Source: OIG generated based on analysis of information and documentation
                    as described in the Scope and Methodology section of this report.

       Impact and Likelihood Factor. The Department’s purchase card office reported that in
FY 2013, the Department spent $98.5 million, which was attributed to 1,563 cardholders. The
impact and likelihood factor, shown in Table 7, raised the significance of the risk associated with
the Department’s purchase card program to “very high.”



10
     Audit of Department of State Purchase Card Domestic Use (AUD/SI-10-31, Sept. 2010).
                                                   6
                                              UNCLASSIFIED
                                              UNCLASSIFIED

                 Table 7. Impact and Likelihood Factor
                                                                       Rating
                  Impact              $98.5 million                    Higher
                  Likelihood          1,563 cardholders                Higher
                  Factor                              Very High
                  Source: OIG generated based on analysis of information and documentation
                  as described in the Scope and Methodology section of this report.

        Final Risk Assessment. The final determination of risk of illegal, improper, or
erroneous use in the Department’s purchase card program was “medium.” An audit of the
Department’s purchase card program was not recommended for inclusion in the OIG FY 2015
annual audit plan; 11 however, OIG suggests that the purchase card program manager take
appropriate actions to ensure and improve oversight of the program. The OIG FY 2014 risk
assessment will carefully consider the progress of OIG/INV forensic auditors’ data mining
efforts and the status of implementation of the outstanding OIG audit recommendation.

 This report was provided for informational purposes, and a response is not required. OIG
 appreciates the cooperation and assistance provided by your staff during this risk assessment. If
 you have any questions please contact me, Assistant Inspector General for Audits, by email at
[Redacted] (b) (6)                                                                [Redacted] (b) (6)
                   @state.gov or Melinda M. Perez, Division Director, by email at                    @state.gov.

cc: A/LM/AQM/BOD – Margaret Colaianni
    CGFS/F – Wayne A. McMillan
    CGFS/F – Carla R. Henson
    CGFS/OMA/FCR – Paul McVicker




11
  The results of the risk assessment do not preclude OIG from reviewing the Department’s purchase card program
during FY 2015 or at any other time.
                                                   7
                                              UNCLASSIFIED
